No. 20-1693

IN THE

SUPREME COURT OF THE UNITED STATES

ERICK ALLEN OSBY,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I, Caroline S. Platt, do swear or declare that on this 24th day of September,
2021, as required by Supreme Court Rule 29, I have served the enclosed
SUPPLEMENTAL BRIEF OF PETITIONER on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by delivering to
Federal Express, for second-day delivery, a package properly addressed to each of them
and containing the above documents.

The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021
(Cuolme SPA

Caroline S. Platt
